IN THE
SUPREME COURT OF THE UNITED STATES

William Brinson Ball,
Petitioner,
v.
United States of America,
Respondent.

PROOF OF SERVICE
I, William Brinson Ball, declare that on this date, September 2, 2021, as
required by Supreme Court Rule 29, have served the enclosed Motion for Leave to
Proceed In Forma Pauperis and Petition for a Writ of Certiorari on counsel for
each party, and on every other person required to be served, be depositing an
envelope containing the above documents in the United States mall, properly
addressed to each of them, and with first-class postage prepaid, or by delivery to
a third-party commercial carrier for delivery within three celandar days.
The names of and address of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543

I declare under penalty of perjury pursuant to 28 U.S.C. ยง 1746 that the
foregoing is true and correct.
Executed on September 2d, 2021.

Ult fc.iu
William B. Ball

-6-

